   U.S. ELECTION ASSISTANCE COMMISSION 

        OFFICE OF INSPECTOR GENERAL






                       FINAL REPORT:
              U.S. ELECTION ASSISTANCE COMMISSION

     EVALUATION OF COMPLIANCE WITH THE REQUIREMENTS OF
     THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT

                       FISCAL YEAR 2009




NO. I-PA-EAC-02-09
OCTOBER 2009
                          U.S. ELECTION ASSISTANCE COMMISSION

                                   OFFICE OF INSPECTOR GENERAL

                                 1225 New York Ave. NW - Suite 1100 

                                       Washington, DC 20005





                                                                                  October 15, 2009


Memorandum

To:         	Gineen Beach
             Chair, U.S. Election Assistance Commission

From:	      Curtis W. Crider
            Inspector General

Subject: 	 Final Report –Evaluation of U.S. Election Assistance Commission’s Compliance with
           the Requirements of the Federal Information Security Management Act (Assignment
           No. I-PA-EAC-02-09)

       We contracted with the independent certified public accounting firm of Leon Snead &
Co. (Leon Snead) to conduct the evaluation of the U.S. Election Assistance Commission’s
(EAC) compliance with the requirements of the Federal Information Security Management Act.
Leon Snead found that the EAC has taken significant actions to address many of the serious
problems noted in prior FISMA reports. However, the EAC still needs to make improvements in
its agency-wide security program to bring it into full compliance with Federal Information
Security Management Act and Office of Management and Budget requirements.

        In its September 30, 2009 response to the draft report (Appendix A) the EAC generally
concurred with the recommendations and provided the actions planned to address the issues
identified in the report. Based on the response we consider the recommendations in the report
resolved but not implemented.         The OIG will monitor the implementation of the
recommendations.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all reports issued, actions taken to implement
recommendations, and recommendations that have not been implemented. Therefore, this report
will be included in our next semiannual report to Congress.

         If you have any questions regarding this report, please call me at (202) 566-3125.
U.S. Election Assistance Commission
 Evaluation of Compliance with the Requirements of
 the Federal Information Security Management Act

                   Fiscal Year 2009




                       Submitted By 


                Leon Snead & Company, P.C. 

   Certified Public Accountants & Management Consultants
                                                                                             Catl{in} PilI/lie "' COHllltllllts
LEON
&        l EAD _ _ _ __ _ _ _ __ _ _ _ _ _ _ _ _ _ _ __ _ __ _ __ _ _ &MlIlIlIsmlrlltCOII~lIltllllts
      5 NY,
  COMPA         I~ C.                                                                       "::":==='-==______
416 11ungerforo Drivc, Suitc 400
Rockville. Maryla nd 2OtI5O
301-7JS...8190
faJC; 301-738-S210
loonsnead.rompanypctrcrols.rom




                                                           October I , 2009




         Mr. Curtis W. Crider 

         Inspector General 
 

         U.S . Election Assistance Commi ssion 
 

         1440 New York Ave, N .W., Suite 203 
 

         Washington, DC 20005 
 



         Dear Mr. Crider:

         Leon Snead & Company. P.C., has completed its evaluation of U_S. Election Assistance
         Commission' s compliance with the Federal Information Security Management Act for fiscal year
         2009. We have incorporated and attached the agency's response into the report_

         Leon Snead & Company appreciates the courtesies and cooperation provided by EAC personnel
         during the evaluation.


                                                           Sincerely.


                                                          1- d~~"""/-{C.OMPAN71fJ, C.
                                                          ~'SnCad"andcfompany. P.C.
                                                    TABLE OF CONTENTS 





                                                                                                                                           Page


Introduction......................................................................................................................................1 


Objective, Scope and Methodology.................................................................................................1 


Summary of Evaluation ...................................................................................................................2 


Findings and Recommendations ......................................................................................................5 


      1. IT Security Program Improved but Additional Controls are Necessary .................................................. 5


      2. EAC has Taken Actions on Prior Deficiencies but Weaknesses Remain ................................................ 8 

      3. IT Security Policies and Procedures Should be Finalized......................................................................10 

      4. Completion of Contingency Planning and COOP Development Should be a High Priority .................12


      5. FDCC Requirements Need to be Implemented......................................................................................14


      6. Access Controls and Remote Access Need Strengthening ....................................................................15


      7. Security Risk Assessments Need to be Finalized and Used to Develop Controls .................................17


      8. EAC Has Made Progress Towards Compliance with PII and Privacy Act Requirements.....................18


      9. Establish Controls to Ensure Audit and Accountability.........................................................................20


     10. Restrict Access to Network Devices .....................................................................................................21



Appendix A - Agency Comments to Report..................................................................................22






                                                                         i
Introduction

Leon Snead & Company, P.C. has completed its evaluation of EAC’s Information Technology
(IT) security program for fiscal year 2009.

Title III of the E-Government Act, entitled the Federal Information Security Management Act
(FISMA) requires each Federal agency to develop, document, and implement an agency-wide
program to provide security for information and information systems that support the operations
and assets of the agency, including those systems managed by another agency or contractor.
FISMA, along with the Paperwork Reduction Act of 1995 and the Information Technology
Management Reform Act of 1996, emphasize a risk-based policy for cost-effective security. In
support of and reinforcing this legislation, the Office of Management and Budget (OMB)
through Circular A-130, Management of Federal Information Resources, Appendix III, Security
of Federal Automated Information Resources, requires executive agencies within the Federal
government to:
   •		   Plan for security;
   •		   Ensure that appropriate officials are assigned security responsibility;
   •		   Periodically review the security controls in their information systems; and
   •		   Authorize system processing prior to operations and, periodically, thereafter.

The EAC is an independent, bipartisan agency created by the Help America Vote Act (HAVA)
to assist in the effective administration of Federal elections. In October 2002, Congress passed
HAVA to invest in election infrastructure and set forth a comprehensive program of funding,
guidance, and ongoing research. To foster those programs and to promote and enhance voting
for Unites States Citizens, HAVA established the EAC.

EAC’S mission is to assist in the effective administration of Federal elections. The agency is
charged with developing guidance to meet HAVA requirements, adopting voluntary voting
systems guidelines, and serving as a national clearinghouse of information about election
administration. EAC also accredits testing laboratories and certifies voting systems and audits
the use of HAVA funds.

Objectives
The evaluation’s objectives were to (1) assess the agency’s information security program and
practices and related compliance with FISMA requirements and (2) follow up on whether the
agency implemented appropriate actions to address recommendations made in the previous OIG
report.

Scope and Methodology
To accomplish the objectives stated above, we evaluated the following control and compliance
requirements.
   •		 Determined if EAC’s policies and procedures met FISMA and OMB requirements, and
       whether EAC maintained an adequate agency-wide IT security program in accordance
       with FISMA requirements.



Leon Snead & Company, P.C.                        1
   •		 Determined if EAC personnel assessed the risk to operations and assets under their
       control, assigned a level of risk to the systems, tested and evaluated security controls and
       techniques, implemented an up-to-date security plan for each major application and
       general support system, and performed certification and accreditation of the agency’s
       systems, as appropriate.
   •		 Ascertained if comprehensive contingency plans have been developed, documented, and
       tested.
   •		 Determined if EAC has provided security awareness training to all employees and
       contractors.
   •		 Determined if access controls were developed and effectively implemented.
   •		 Ascertained whether the agency met OMB requirements for securing sensitive personnel
       privacy information.
   •		 Determined, for the areas tested, if EAC’s IT security program met the minimum security
       requirements identified in NIST Special Publication 800-53, Recommended Security
       Controls for Federal Information Systems and Organizations.

The evaluation was performed in accordance with Government Auditing Standards, and included
appropriate tests necessary to achieve the evaluation objectives. Other criteria used in the
evaluation included the National Institute of Standards and Technology (NIST) guidance, and
OMB Memorandum M-09-29, FY 2009 Reporting Instructions for the Federal Information
Security Management Act and Agency Privacy Management, dated August 20, 2009.

Summary of Evaluation

Our 2009 evaluation found that EAC had taken actions to address many of the serious problems
noted in the 2008 FISMA evaluation report. In addition, EAC had plans to address other issues
noted in the report. However, EAC has not yet taken sufficient actions to establish an agency-
wide IT security program that is in full compliance with FISMA and OMB requirements. The
following table describes our conclusions on whether EAC was in substantial compliance (SC),
partial compliance (PC), or not in substantial compliance (NSC) with IT security control areas
indentified in FIPS 200.

                          CONTROL REQUIREMENT                       Compliance Determination
                                                                        (SC, PC, NSC)
           Access Control                                                    NSC
           Awareness and Training                                             SC
           Audit and Accountability                                           PC
           Certification, Accreditation, and Security Assessments             PC
           Configuration Management                                           SC
           Contingency Planning                                              NSC
           Identification and Authentication                                  PC
           Incident Response                                                  SC
           Maintenance                                                        SC




Leon Snead & Company, P.C.                            2
           Media Protection                                            SC
           Physical and Environmental Protection                       SC
           Planning                                                    PC
           Personnel Security                                          SC
           Risk Assessment                                             PC
           System and Services Acquisition                             SC
           System and Communications Protection                        PC
           System and Information Integrity                            SC

We identified the following problems that support our determinations shown above.

   •		 IT security policies and procedures, which form the basis for a risk-based IT security
       program, have not been fully developed. During our evaluation, EAC issued a draft IT
       security handbook; however, the document needs to be finalized and detailed operational
       procedures need to be developed to fully meet this key FISMA control requirement. As a
       result, EAC incurs unnecessary risk until security policies and procedures are developed
       (or finalized) and implemented.

   •		 EAC has not completed the required contingency planning for its information systems,
       which are part of an overall organizational program for achieving continuity of operations
       for mission/business operations during an emergency. We attributed this issue to the
       need for a security officer with expertise in managing an agency-wide IT security
       program. As a result, until EAC completes necessary contingency planning, COOP
       development, and implements actions to mitigate the identified risks, EAC incurs
       unnecessary risk of disruption of its operations.

   •		 EAC has not fully implemented Federal Desktop Computer Configuration (FDCC) for
       workstations that OMB first mandated in 2007. As required by OMB, NIST has issued
       guidance that provides mandatory configuration requirements for desktops that run a
       windows operating system. These configurations eliminate known computer security
       vulnerabilities.

   •		 EAC’s access controls, including remote access to EAC’s network, do not fully meet
       FISMA requirements. As a result, EAC incurs an unnecessary risk of unauthorized
       access to its information systems and data.

   •		 EAC has not finalized required assessments of the risk and magnitude of harm that could
       result from the unauthorized access, use, disclosure, disruption, modification, or
       destruction of information and information systems that support the operations and assets
       of the agency. As a result, EAC is not yet able to develop risk-based controls that take
       into account vulnerabilities and threat sources.

   •		 Although EAC has actions underway to meet many of the OMB directives related to
       personally identifiable information (PII), additional actions are necessary before the
       agency fully meets these requirements.



Leon Snead & Company, P.C.                         3
   •		 EAC’s system produces audit records that contain sufficient information to establish what
       events occurred, and tracks sufficient elements to enable EAC to monitor network events.
       However, EAC has not established a continuous monitoring program which requires the
       organization to regularly review and analyze information system audit records for
       indications of inappropriate or unusual activity, investigate suspicious activity or
       suspected violations, and take necessary actions based upon the results of these reviews.

   •		 The EAC needs to extend its access security controls to include network devices attached
       to the agency’s internal network. EAC relies on external access controls and physical
       access controls to its workplace, and has not implemented additional required controls to
       prohibit access to network devices without required identification and authentication
       controls in place.

EAC officials provided a written response to the draft report dated September 30, 2009. In that
response, EAC officials generally agreed with the issues in the report and advised that they have
established a high-level POA&M which, when implemented over FY 2010, will enable
compliance in every FISMA control area.




Leon Snead & Company, P.C.                     4
FINDINGS AND RECOMMENDATIONS

1. IT Security Program Improved but Additional Controls are Necessary

   The U.S. Election Assistance Commission (EAC) has begun to take actions to address the IT
   security deficiencies that were reported in the 2008 FISMA report. While many corrective
   actions are underway or planned, EAC has not fully corrected all weaknesses that impact its
   IT security program. We attributed this condition, in part, to the absence of management
   officials with IT security program expertise. As a result, EAC is not in full compliance with
   the requirements of the Financial Information Systems Management Act (FISMA).

   As part of our evaluation, we assessed whether EAC’s agency-wide IT security program was
   in substantial compliance with each of the security control areas established by Federal
   Information Processing Standards (FIPS) 200, Minimum Security Requirements for Federal
   Information and Information System. For each control area, we determined whether the EAC
   was either in substantial compliance (SC), partial compliance (PC), or not in substantial
   compliance (NSC). The table below shows our determinations.

                             CONTROL REQUIREMENT                     Compliance Determination
                                                                         (SC, PC, NSC)
            Access Control                                                    NSC
            Awareness and Training                                             SC
            Audit and Accountability                                           PC
            Certification, Accreditation, and Security Assessments             PC
            Configuration Management                                           SC
            Contingency Planning                                              NSC
            Identification and Authentication                                  PC
            Incident Response                                                  SC
            Maintenance                                                        SC
            Media Protection                                                   SC
            Physical and Environmental Protection                              SC
            Planning                                                           PC
            Personnel Security                                                 SC
            Risk Assessment                                                    PC
            System and Services Acquisition                                    SC
            System and Communications Protection                               PC
            System and Information Integrity                                   SC

   FIPS 199, Standards for Security Categorization of Federal Information and Information
   System, provides that policies and procedures play an important role in the effective
   implementation of an enterprise-wide information security program, and the success of the
   resulting security measures employed to protect an agency’s information and information
   systems. FIPS 199 provides that organizations must develop and promulgate formal,
   documented policies and procedures governing the minimum security requirements set forth
   in this standard, and must ensure their effective implementation.



Leon Snead & Company, P.C.                            5
   NIST Special Publication (SP) 800-53, Recommended Security Controls for Federal
   Information Systems and Organizations, provides that agencies must categorize their
   information and information systems under the requirements of FIPS 199. Security
   categorization is accomplished as an organization-wide activity with the involvement of
   senior-level organizational officials. As required by FIPS 200, organizations use the security
   categorization results to designate information systems as low-impact, moderate-impact, or
   high-impact systems. For each information system, the agency must meet recommended
   minimum security controls, as applicable to their operations.

   NIST SP 800-53 stresses that information obtained during the agency-wide risk assessment
   facilitates the selection of security controls including supplementing the minimum controls
   contained in this document. NIST SP 800-53 provides the minimum security requirements
   covering seventeen security-related areas with regard to protecting the confidentiality,
   integrity, and availability of federal information systems and the information processed,
   stored, and transmitted by those systems.

   We based our determination on EAC’s compliance with each of the above security control
   areas by assessing the IT security policies and procedures EAC had drafted, testing selected
   minimum control requirements identified in NIST SP 800-53, and reviewing IT security
   documentation provided by EAC’s service provider for most of the agency’s general support
   system security and operational requirements.

   EAC in response to the IT security weaknesses reported in the 2008 FISMA report developed
   a detailed Plan of Action and Milestone (POA&M) to address each of the report’s findings
   and recommendations. We performed tests to determine whether EAC had corrected the
   weaknesses or had actions underway to correct them. As noted in a subsequent finding, we
   determined that EAC had addressed or was in the process of addressing many of the
   problems. However, due to the extent of the problems noted in the prior report, the EAC had
   not yet corrected several problem areas. Our tests noted additional control weaknesses that
   were not previously identified.

   Recommendations

   1. 	 Establish an overall comprehensive plan of action and milestone (POA&M) document,
        with target dates for completion of corrective actions, to address the problems noted in
        this report. Assure that the plan is monitored on a monthly basis and updates provided to
        the commissioners.

   2.		 Provide sufficient specialized training to EAC personnel to enable EAC to develop and
        maintain a risk-based IT security program that meets FISMA requirements, or hire an
        official that has experience managing an agency-wide IT security program.

   3.		 Establish a continuous monitoring program to address the NIST 800-53 requirements.




Leon Snead & Company, P.C.                     6
   Agency Response

   EAC officials advised that the agency has already developed an overall POA&M which
   includes target dates for completion of key corrective actions. EAC officials also advised
   that the agency has appointed a Privacy Officer, and will initiate a search for a full-time CIO.
   Further, these officials indicated that procedures will be developed to ensure that a
   continuous monitoring program is developed within EAC.

   Auditor Comments

   The agency has agreed to take action to address each recommendation.




Leon Snead & Company, P.C.                      7
2. 	 EAC has Taken Actions on Prior Deficiencies but Weaknesses Remain

   As part of our evaluation, we tested the actions that EAC took to address the weaknesses
   identified in EAC’s 2008 FISMA report. The 2008 evaluation report concluded that EAC
   had not established an IT security program, and had not been proactive in monitoring
   security controls in order to strengthen EAC’s IT security program.

   Our tests disclosed that, prior to the start of our 2009 evaluation; EAC began to develop an
   overall strategy to address the problems impacting the IT security program. EAC contracted
   with a firm to assist in developing an overall plan to address the IT security program
   weaknesses, and to assist in the development of specific corrective action plans. The actions
   taken by EAC included, among others:

        •		 Drafting an IT security program handbook that provides outlines EAC’s IT security
            program, and identifies selected specific control processes;
        •		 Developing an IT management structure that includes hiring a full-time Chief
            Information Officer;
        •		 Implementing actions to develop PII controls; and
        •		 Conducting a comprehensive risk assessment.

   The following table summarizes the problems noted in the 2008 FISMA report, and our
   determination of whether the actions taken by EAC were sufficient to substantially correct
   the problems. For those problems that continue, we have noted what corrective actions EAC
   has taken or planned to address them.

                      Issue                          Auditor Conclusions                   Actions Taken by
                                                                                                 EAC
     An agency-wide information security         Partially Addressed. EAC has            EAC is developing an
     program in compliance with FISMA has        drafted an IT security handbook,        agency-wide IT security
     not been developed. A security              but has not yet started to develop      program, and has taken
     management structure with adequate          the detailed operational policies       some actions to address
     independence, authority, and expertise      required to implement the controls      program weaknesses, and
     which is assigned in writing has not been   required by FISMA, or identified        has other actions planned.
     implemented.                                in the draft handbook. EAC needs
                                                                                         EAC is developing an IT
                                                 to implement additional actions
                                                                                         management structure,
                                                 before this issue is fully addressed.
                                                                                         and is planning to hire a
                                                 EAC is developing a management          full-time Chief
                                                 structure, but has not yet fully        Information Officer.
                                                 implemented the plan.                   Other management
                                                                                         structure changes are on
                                                                                         hold until this position is
                                                                                         filled.
     A Certification & Accreditation (C&A)       Resolved.
     and formal Risk assessment, security plan
     or Security Test and Evaluation of EAC’s
     local area network and website general
     support system has not been completed or
     developed.



Leon Snead & Company, P.C.                              8
     EAC is not fully compliant with several      Partially Addressed. Until EAC         EAC has appointed a
     Privacy Act Requirements including:          completes actions underway, and        privacy officer, and has
                                                  implements controls required by        identified those systems,
     A Chief Privacy Officer with the
                                                  OMB directives on PII and the          both manual and
     responsibility for monitoring and
                                                  Privacy Act, EAC remain s not in       automated, that house
     enforcing privacy related policies and
                                                  full compliance with several OMB       PII data. EAC has
     procedures have not been designated.
                                                  directives dealing PII, and the        several actions underway
     EAC has not identified systems housing       Privacy Act.                           that will address many of
     personally identifiable information or                                              the remaining issues.
     conducted related Privacy Impact
     Assessments required by OMB
     Memorandum 06-16.
     EAC has not developed formal policies
     that address the information protection
     needs associated with personally
     identifiable information that is accessed
     remotely or physically removed.
     Weaknesses noted in review of the            Resolved.
     independent third party information
     security examinations and inspections, are
     not monitored by EAC within the GSA
     POA&M.

     Policies or procedures for information       Partially Addressed. EAC has       EAC will issue a handbook
     security or privacy management have not      made progress in this area,        on EAC IT security controls
     been developed. Per the terms of the         however, EAC needs to finalize     in the near future. EAC also
     MOU, the GSA procedures will prevail         its IT security handbook, and      plans to develop additional
     where there are not guiding policies         develop operational directives     operational directives to
     provided by the user organization.           before it fully addresses this     implement established IT
                                                  problem area fully.                security controls.
     A formal incident response capability has    Resolved.
     not been established.
     A Continuity of Operations Plan, Disaster    Problem Continues.                 EAC has not yet addressed
     Recovery Plan, or Business Impact                                               this issue.
     Assessment has not been developed.
     EAC does not have an inventory of all the    Resolved.
     systems or applications used by GSA to
     support the operations of EAC, or
     formally identified major applications and
     general support systems.


   Since recommendations are made in other findings, we are not making any recommendations
   for this issue.




Leon Snead & Company, P.C.                              9
3. 	 IT Security Policies and Procedures Should be Finalized

   IT security policies and procedures, which form the basis for a risk-based IT security
   program, have not yet been completed. EAC issued a draft IT security handbook; however,
   the document needs to be finalized and detailed operational procedures need to be developed
   in order to fully meet this key FISMA control requirement. As a result, EAC incurs
   unnecessary risk until security policies and procedures are developed and implemented.

   NIST SP 800-53 requires organizations to develop, disseminate, and periodically review and
   update a formal control policy that addresses purpose, responsibilities, coordination among
   organizational entities, and criteria for achieving compliance in each of seventeen IT control
   areas identified in FIPS 200. NIST SP 800-53 also provides that policies and procedures that
   are based on risk assessments cost-effectively reduce information security risks to an
   acceptable level and address information security throughout the life cycle of each
   organizational information system.

   As noted above, EAC developed an “Information Security Policy Handbook”. The handbook
   outlines EAC’s agency-wide IT security program, and identifies selected controls that EAC
   will follow in its security program. The handbook provides guidance, among others, in the
   following areas:

       •		 Scope. The handbook provides that policies apply to every individual, organization,
           and information system that processes or handles EAC-owned information.
       •		 Management Controls. The handbook provides guidance on risk management,
           required monitoring requirements, and other management control areas identified in
           NIST SP 800-53.
       •		 Operational Controls. The handbook provides guidance on personnel security
           requirements, contingency planning requirements, and other operational control areas
           identified in NIST SP 800-53.
       •		 Technical Controls. The handbook identifies the technical control security policy
           statements for EAC systems. Areas addressed include policies on access controls,
           including remote access, and other technical control areas indentified in NIST SP
           800-53.

   We reviewed the draft handbook to determine whether it substantially met the requirements
   contained in NIST SP 800-53. We found that the handbook provides a high level overview
   of EAC’s IT security program objectives, and provides specific IT security control
   requirements. Overall, we concluded that the handbook met the requirements, except for the
   need to develop specific operational details that are needed to implement the policy
   directives.

   Recommendation

   Finalize the EAC IT security handbook, and establish a process to identify and document
   necessary operational processes to enable personnel to meet the control requirements
   contained in the handbook, and applicable NIST control requirements.


Leon Snead & Company, P.C.                     10
   Agency Response

   EAC officials advised that they will finalize the handbook, and will develop written
   operational procedures.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                11
4. 	Completion
   	           of Contingency Planning and COOP Development Should be a High
    Priority

   EAC has not completed the required contingency planning for its information systems, which
   are part of an overall organizational program for achieving continuity of operations for
   mission/business operations during an emergency. We attributed this issue to the need for a
   security officer with expertise in managing an agency-wide IT security program. As a result,
   until EAC completes necessary contingency planning, COOP development, and implements
   actions to mitigate the identified risks, EAC incurs an unnecessary risk of disruption to its
   operations.

   NIST SP 800-53 requires that an organization should develop a contingency plan for the
   information system that:

       •		 Identifies essential missions and business functions and associated contingency
           requirements, and provides recovery objectives, restoration priorities, and metrics.
       •		 Addresses contingency roles, responsibilities, assigned individuals with contact
           information, and addresses maintaining essential missions and business functions
           despite an information system disruption, compromise, or failure.
       •		 Establishes timeframes for periodic review of the contingency plan, revises the
           contingency plan to address changes to the organization, information system, or
           environment; and any problems encountered during contingency plan
           implementation, execution, or testing.
       •		 Establishes an alternate processing site including necessary agreements to permit the
           resumption of information system operations for essential missions and business
           functions.

   Our tests of this critical control area found that EAC backs up its general support system
   records daily and maintains copies of these records indefinitely. We also determined that
   EAC contracts with the General Services Administration (GSA) as a service provider for its
   core network operations. Therefore, EAC does obtain contingency operational controls for
   aspects of its network provided by the service provider. However, our evaluation noted that
   EAC has not sufficiently addressed other critical operational processes that are necessary to
   meet its contingency of operations objectives, as required by NIST SP 800-53 and related
   NIST documents. In addition, we were not provided any documentation to support that the
   EAC had completed critical functions required by Continuity of Operations planning to
   ensure it can continue to accomplish critical mission functions during an event that requires
   use of contingency or COOP plan.

   Recommendation

   Assign a high priority to the completion of required contingency plans and COOP
   documents.




Leon Snead & Company, P.C.                    12
   Agency Response

   EAC officials advised that the agency will develop required contingency plans and COOP
   documents once the risk assessment process has been completed.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                 13
5. FDCC Requirements Need to be Implemented

   EAC has not fully implemented Federal Desktop Computer Configuration (FDCC) that OMB
   first mandated in 2007. As required by OMB, NIST has issued guidance that provides
   mandatory configuration requirements for desktops that run a windows operating system.
   These configurations eliminate known computer security vulnerabilities.

   The FDCC configuration contains numerous settings and configuration requirements. In
   order to determine whether EAC had implemented the FDCC requirements, we selected
   several requirements dealing with password configuration, and compared them to the current
   EAC settings. Details of our review follow:

                     FDCC Requirement                                LSC Comments
          Account lockout - 15 minutes                     EAC meets or exceeds requirement.
          Account lockout threshold - 5 invalid attempts   EAC meets or exceeds requirement.
          Reset at 15 minutes                              EAC meets or exceeds requirement.
          Passwords remembered - 24                        EAC does not meet requirement.
          Maximum password age - 60 days                   EAC does not meet requirement.
          Minimum password age - 1 day                     EAC meets or exceeds requirement.
          Password length - 12 characters                  EAC does not meet requirement.
          Password complexity enabled                      EAC meets or exceeds requirement.
          Store password using reversible encryption       EAC meets or exceeds requirement.
          disabled

   As discussed above, the FDCC contains substantial numbers of other required configuration
   requirements that are mandated to be followed by agencies. We discussed FDCC
   implementation with EAC IT personnel, and were advised that the service provider has
   provided a new “image” that meets FDCC requirements. However, implementation is being
   delayed until further testing, and other administrative actions are completed. EAC officials
   advised us that changes to the password requirements have been revised to meet FDCC
   requirements.

   Recommendation

   Implement the minimum password settings for the network. Ensure that other FDCC
   mandatory configuration settings are established as soon as possible.

   Agency Response

   EAC officials advised that the agency has already changed the minimum password settings,
   and agreed to implement FDCC settings once an on-going legal issue is resolved.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.


Leon Snead & Company, P.C.                            14
6. 	 Access Controls and Remote Access Need Strengthening

   EAC’s access controls, including remote access to EAC’s network do not fully meet FISMA
   requirements. As a result, EAC’s information and information systems incur unnecessary
   risk of unauthorized access.

   NIST SP 800-53 requires that agencies implement the following minimum control
   requirements:

       •		 The organization uses cryptography to protect the confidentiality and integrity of
           remote access sessions, and the encryption strength of mechanism is selected based
           on the security categorization of the information.
       •		 The information system routes all remote accesses through a limited number of
           managed access control points.
       •		 The organization authorizes the execution of privileged commands and access to
           security-relevant information via remote access only for compelling operational needs
           and documents the rationale for such access in the security plan for the information
           system.
       •		 The organization ensures that remote sessions for accessing critical security functions
           and security-relevant information employ additional security

   We tested selected control requirements for access controls including remote access through
   dial-up methods. In addition, we performed tests to determine whether EAC met
   requirements established by OMB over remote access for devices that contain or access
   sensitive Personal Identifying Information (PII).

   Our tests identified that the EAC had not yet established a policy to require that system
   administrator’s periodically change their passwords. Since administrators have significant
   authorities in a system, individuals should be required to change these passwords at required
   intervals. In addition, EAC needs to maintain documentation of specific user access
   authorities granted, along with the supervisory concurrence that this access is necessary for
   the individual to accomplish his/her job. We also found that the EAC was not able to
   perform the required minimum control requirement to review and recertify the user’s access
   authorities at least annually.

   In addition, we found that EAC has not yet implemented the security control mandated by
   OMB that remote devices that will access or store PII data must have two-factor
   authentication, and one of the factors must be a device separate from the computer gaining
   access. In addition, OMB requires that agencies encrypt on all data on mobile computers if
   storing or accessing PII data.

   Recommendation

   Implement access controls required by FISMA, including controls over all remote access
   methods, and OMB guidance on securing PII data.


Leon Snead & Company, P.C.                     15
   Agency Response

   EAC officials advised that the agency will work to address security over dial-up access, and
   will work to implement two-factor authentication.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                    16
7. Security Risk Assessments Need to be Finalized and Used to Develop Controls

   EAC has not finalized required assessments of the risk and magnitude of harm that could
   result from the unauthorized access, use, disclosure, disruption, modification, or destruction
   of information and information systems that support the operations and assets of the agency.
   As a result, EAC is not yet able to develop risk-based controls that take into account
   vulnerabilities, and threat sources.

   NIST SP 800-53 provides that an effective information security program should include
   periodic assessments of risk, including the magnitude of harm that could result from the
   unauthorized access, use, disclosure, disruption, modification, or destruction of information
   and information systems that support the operations and assets of the organization. Risk
   assessments also include periodic vulnerability scanning of information systems.

   During our evaluation, EAC provided a draft risk assessment to us. However, we did not
   perform detailed tests of this document to determine if it met NIST requirements because we
   received it after completion of our testing. We also performed tests to determine whether
   EAC performed periodic vulnerability scanning of its information systems, including
   workstations attached to its network. We found that EAC’s service provider performed
   periodic vulnerability scans of the network and workstations. We also found that the service
   provider updates and applies security patches to existing software periodically.

   Recommendation

   Finalize the risk assessment, and ensure it is used to develop risk-based controls, and as a
   starting point for development of contingency plans and COOP documents.

   Agency Response

   EAC officials advised that the agency will work to finalize the risk assessment, and will
   include a comprehensive review of threats and vulnerabilities to EAC systems.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                     17
8. EAC Has Made Progress Towards Compliance with PII and Privacy Act Requirements

   Although EAC has actions underway to meet many of the OMB PII directives, additional
   actions are necessary to comply with Federal privacy requirements. As a result, EAC is not
   in full compliance with regulations and requirements in these areas.

   We tested EAC’s adherence to PII directives issued by OMB, and other privacy
   requirements. The details of our tests follow:

       OMB                   Requirement                  EAC Actions                     Comments
      Guidance
    M-07-16, dated   Requires agency to develop     EAC has a draft document        EAC is not in full
    May 22, 2007     and implement a breach         and expects to publish it in    compliance with this area.
                     notification policy by         the next few months.
                     November 2007. Includes
                     all systems and paper
                     documents.
                     Requires agency to review      EAC has completed this          EAC provided us with
                     existing requirements to       review.                         documentation, and we
                     ensure meet all security and                                   determined that EAC
                     privacy requirements.                                          meets this requirement.
                     Review current PII holdings    EAC has compiled a listing      EAC is not in full
                     and determine if holdings      of systems with PII             compliance with this area.
                     are accurate, relevant and     information. EAC is
                     reduce the PII holdings to     developing plans to address
                     minimum necessary.             what PII holdings it can
                     Agency specific review         eliminate.
                     plans and progress reports
                     were to be included in
                     FISMA reports.
                     Following initial review,      EAC has notice ready, but       EAC is not in full
                     publish a schedule for which   has not yet issued the          compliance with this area.
                     the agency will periodically   document. EAC advised
                     review holdings.               that the document is
                                                    undergoing legal review.
                     Review agency use of social    The EAC is looking at ways      EAC is not in full
                     security numbers in agency     to reduce any unnecessary       compliance with this area.
                     systems to identify any        collection of social security
                     unnecessary collection and     numbers.
                     use of social security
                     numbers. Establish plan,
                     based upon this review,
                     within 120 days of memo to
                     eliminate collection or use
                     of social security numbers.
                     Elimination of unnecessary
                     collection or use within 18
                     months.




Leon Snead & Company, P.C.                          18
                     Encrypt on all data on           Not yet implemented              EAC is not in full
                     mobile computers.                                                 compliance with this area.
                     Require two-factor               Not yet implemented              EAC is not in full
                     authentication.                                                   compliance with this area.

                     Require time out function        EAC has implemented this         Our tests support that this
                     for remote computing.            control.                         control implemented.
                     Require all personnel with       A draft letter has been          EAC is not in full
                     access to PII to sign at least   prepared, but has not yet        compliance with this area.
                     annually a document that         been issued.
                     describes rules of behavior
                     on PII and clearly describes
                     the person’s responsibilities.
                     This rule must include the
                     consequences and corrective
                     actions for failure to follow
                     rules on PII.
                     Develop and publish a            A draft letter has been          EAC is not in full
                     “routine use” policy dealing     prepared, but has not yet        compliance with this area.
                     with breach of security          been issued.
                     relating to PII data,
                     including actions taken for
                     individuals affected by the
                     breach.
                     Develop a breach                 Not yet published, but have      EAC is not in full
                     notification plan addressing     a draft that is being cleared.   compliance with this area.
                     the elements in the OMB
                     guidance.
    OMB Circular     Review biennially each           Not yet accomplished.            EAC is not in full
    A-130            system of records notice to                                       compliance with this area.
                     ensure that it accurately
                     describes the system of
                     records.


   Recommendation

   Monitor ongoing actions to ensure that compliance with OMB PII guidance and Privacy Act
   requirements are completed expeditiously.

   Agency Response

   EAC officials advised that the agency has drafted several policies related to the protection of
   PII data, and will continue to work to ensure full compliance with requirements.

   Auditor Comment

   The agency proposed actions that when implemented should address the audit
   recommendation.



Leon Snead & Company, P.C.                            19
9. Establish Controls to Ensure Audit and Accountability

   EAC’s system produces audit records that contain sufficient information to establish what
   events occurred, the sources of the events, the outcomes of the events, and tracks sufficient
   elements to enable EAC to monitor network events. However, EAC has not yet established a
   continuous monitoring program which requires the organization to regularly review and
   analyze information system audit records for indications of inappropriate or unusual activity,
   investigate suspicious activity or suspected violations, report findings to appropriate officials,
   and take necessary actions based upon the results of these reviews.

   NIST SP 800-53 requires that the agency establish a control that the information system
   alerts appropriate organizational officials in the event of an audit processing failure and takes
   appropriate actions to address the problem. In addition, the agency should regularly review
   and analyze information system audit records for indications of inappropriate or unusual
   activity, investigates suspicious activity or suspected violations, reports findings to
   appropriate officials, and takes necessary actions.

   Our tests found that EAC has not yet implemented the required minimum controls that the
   information system alert appropriate organizational officials in the event of an audit
   processing failure and implements the organization-defined actions to be taken, such as
   shutting down the information system. In addition, EAC does not employ automated
   mechanisms to alert security personnel of the inappropriate or unusual activities with security
   implications defined by EAC, as required by NIST requirements.

   Recommendation

   Establish controls over the audit logs maintained to ensure that the system is capable of
   providing required alerts. Ensure that periodic reviews are made of the logs to identify any
   unusual activity, other concerns or problems.

   Agency Response

   EAC officials advised that the agency will develop a procedure relating to audit logs, and
   will strengthen actions in this area.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                      20
10. Restrict Access to Network Devices

   EAC needs to extend its access security controls to include network devices attached to the
   agency’s internal network. EAC relies on external access controls and physical access
   controls to its workplace, and has not yet implemented additional required controls to
   prohibit access to network devices without required identification and authentication controls
   in place. As a result, EAC allows anyone within its physical office boundaries to access
   network devices (printers, copiers and other devices attached to the network) without
   identification and authorization controls being employed.

   NIST SP 800-53 provides that access control policies and associated access enforcement are
   employed by organizations to control access between users and objects (e.g., devices) in the
   information system.

   The FEC has external risk-based protection to its information and information systems
   through its service provider’s (GSA) security controls, and our tests of several key IT
   security controls have found that the service provider’s controls met FISMA requirements.
   Although EAC has implemented external IT controls and physical security controls, the U.S.
   CERT and other entities have reported that vulnerabilities in network printers have allowed
   malicious computer hackers to attack networks. If EAC implemented required access
   controls over these devices, EAC would further decrease the risk to its information and
   information systems.

   Recommendation

   Ensure that access controls are implemented for all EAC network devices.

   Agency Response

   EAC officials advised that the agency intends to implement controls to address this problem.

   Auditor Comments

   The agency proposed actions that when implemented should address the audit
   recommendation.




Leon Snead & Company, P.C.                     21
                           U. S. ELECTION ASSISTANCE COMMISSION 

                               OFFICE OF THE EXECUTIVE DIRECTOR


                                1225 New York Avenue, NW, Suite 1100 

                                       Washington, DC. 20005 





                                                            September 30, 2009


Memorandum

To: 	          Curtis W. Crider
               Inspector General

From:		        Thomas R. Wilkey
               Executive Director

Subject: 	     Management Response to Draft Evaluation Report-U.S. Election Assistance
               Commission Evaluation of Compliance with the Requirements of the Federal
               Information Security Management Act Fiscal Year 2009 ( Assignment No. 1-EV-
               EAC-02-09)

This is in response to your Memorandum dated September 17, 2009 wherein you requested a
written response to the findings associated with the above mentioned Draft Evaluation Report.
As you have requested, the attached PDF document indicates Management’s support for
agreement or disagreement with the results of the evaluation.

Further attached is a 2009 FISMA High-level POA&M.

If you have any questions please feel free to contact me.


Attachment




                                                22
                                                         2009 FISMA Management Response


SERIAL#                      2009 FISMA Auditor Recommendation                                            EAC Management Response
          Establish an overall comprehensive plan of action and milestone         EAC has already developed an overall POA&M, which includes target
          (POA&M) document, with target dates for completion of corrective        dates for completion of key corrective actions. EAC is already working
          actions, to address the problems noted in this report. Assure that      with a contractor to implement several corrective actions, and the
          the plan is monitored on a monthly basis and updates provided to the    contractor is required to keep EAC management closely informed of all
 1.1      commissioners.                                                          progress.


                                                                                  EAC will initiate a search for a full-time CIO, who may also serve as
                                                                                  SAISO, Chief Privacy Officer, and information security evangelist.

                                                                                 EAC has appointed a Privacy Officer, who will work with the CIO to
                                                                                 ensure that PII risk is properly addressed by the EAC information
          Provide sufficient specialized training to EAC personnel to enable EAC security program.
          to develop and maintain a risk-based IT security program that meets
          FISMA requirements, or hire an official that has experience managing   EAC will finalize information security roles and responsibilities
 1.2      an agency-wide IT security program.                                    across the organization once the CIO position has been filled.
                                                                                 All operational procedures developed for information security at EAC
                                                                                 will facilitate continuous monitoring of EAC information systems and
                                                                                 security controls.

                                                                                  In particular, procedures for change management, configuration
                                                                                  management, audit log monitoring, network monitoring, patch
          Establish a continuous monitoring program to address the NIST 800-53    management, risk management, and vulnerability scanning will
 1.3      requirements.                                                           facilitate continuous monitoring.


                                                                                  EAC will finalize and disseminate the information security policies
                                                                                  handbook through the organization.

          Finalize the EAC IT security handbook, and establish a process to      EAC information owners and IT staff will develop, implement, and
          identify and document necessary operational processes to enable        periodically review written operational procedures that specify how to
          personnel to meet the control requirements contained in the handbook,  implement the controls required to satisfy EAC's information security
  3       and applicable NIST control requirements.                              policy objectives in every FISMA control area.
                                                                                 EAC will develop a BIA and DRP, and develop and test a COOP, once the
                                                                                 current risk assessment has been reviewed by information owners, and
          Assign a high priority to the completion of required contingency plans major policies, procedures, and controls have been finalized and
  4       and COOP documents.                                                    implemented.

                                                                                  Minimum password settings for the network have already been
                                                                                  implemented.

                                                                                 Due to an ongoing legal matter, EAC is unable to re-image any
          Implement the minimum password settings for the network. Ensure that computers at any time. Once this matter has been resolved, EAC will
          other FDCC mandatory configuration settings are established as soon as develop a reimaging schedule, present this schedule to appropriate
  5       possible.                                                              supervisors, and then reimage computers as per this schedule.




                                                                                                                                      Appendix A
                                                                          1/2
                                                    2009 FISMA Management Response


                                                                             EAC will work with GSA to disable dialup remote access or, at a
                                                                             minimum, grant dialup access only on an as-required and/or contingency
                                                                             basis.

                                                                             EAC will re-initiate conversations with GSA and develop a timeline for
                                                                             the implementation of two-factor authentication for securing remote
     Implement access controls required by FISMA, including controls over    access to PII, possibly using HSPD-12 Employee ID badges for all
6    all remote access methods, and OMB guidance on securing PII data.       portable computers.

                                                                            EAC's FISMA contractor will work with EAC information owners to
                                                                            review, refine, and finalize the provisional risk assessment. This
                                                                            will include a comprehensive review of threats and vulnerabilities, a
     Finalize the risk assessment, and ensure it is used to develop risk-   review of the SP 800-53 security controls baseline already developed
     based controls, and as a starting point for development of contingency by the contractor, and separation of controls into common and system-
7    plans and COOP documents.                                              specific controls.


                                                                             The EAC Privacy Officer has already taken inventory of PII systems and
                                                                             developed several draft policies and procedures related to protection
                                                                             of PII and privacy-related incident response.

                                                                             The 2009 EAC FISMA evaluation provides detailed guidance on areas in
                                                                             which EAC is still only partially compliant with PII and Privacy Act
     Monitor ongoing actions to ensure that compliance with OMB PII          requirements, and EAC will formally adopt the PII recommendations from
8    guidance and Privacy Act requirements are completed expeditously.       the FISMA evaluation as a guide to complete compliance.

     Establish controls over the audit logs maintained to ensure that the    EAC IT staff will create a written itemization of every audit log type
     system is capable of providing required alerts. Ensure that periodic    in use, will work with GSA to both identify and implement appropriate
     reviews are made of the logs to identify any unusual activity, other    action on audit failures, and will develop a procedure to review these
9    concerns or problems.                                                   log files monthly and report errors to appropriate supervisors.

                                                                             EAC intends to implement either a separate, limited-access "visitor"
                                                                             VLAN segment on the EAC network, or else create a completely isolated
                                                                             wireless network for visitor access. In either case, there will be no
     Ensure that access controls are implemented for all EAC network         visitor access to any shared resources on the EAC network, including
10   devices.                                                                network devices such as printers, scanners, and copiers.




                                                                                                                                 Appendix A
                                                                       2/2
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1225 New York Ave. NW - Suite 1100
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
